                        AUDIT REPORT




Environmental Compliance
Review Closeout Process
  June 17, 2014




                  Report Number HR-AR-14-003
                                                                      HIGHLIGHTS
                                                                     June 17, 2014
                                                 Environmental Compliance Review
                                                                 Closeout Process
                                                       Report Number HR-AR-14-003
BACKGROUND:
The U.S. Postal Service implemented a        2013, facility management closed only 71
comprehensive environmental                  percent of the observations within 90
compliance review (ECR) program in           days as required. We reviewed 142
fiscal year (FY) 1995 to ensure              observations that were open for more
compliance with environmental                than 181 days and found that
mandates. The program provides an            management closed 26 (18 percent)
internal process for reviewing postal        during our audit and initiated corrective
facilities' compliance with applicable       action on 72 (51 percent). However,
environmental laws and regulations,          facility management did not properly
tracking regulatory deficiencies, and        document completed corrective actions
taking corrective actions.                   for 31 observations (22 percent) and did
                                             not take corrective action on 13 (9
Within 90 days of completing an ECR,         percent).
facility management should close all
observations (findings of noncompliance      Further, the escalation process did not
or practices that could lead to              effectively ensure personnel addressed
noncompliance) by completing and             observations open longer than 181 days.
documenting all corrective actions. The      This occurred because ECR instructions
ECR includes an escalation process that      did not include controls to ensure Office
progressively sends system-generated         of Sustainability managers regularly
notifications to higher level management     assist with open ECR observations and
at four intervals beginning 15 days before   the escalation process did not continue
and ending 61 days after corrective          to provide notifications until observations
action is due to be completed. Finally, at   were closed.
181 days, open observations are
automatically reported monthly to the        We identified about $2 million in assets
Office of Sustainability. Failure to close   at risk as a result of potential fines for
ECR findings on time could result in fines   noncompliance with environmental laws
for noncompliance.                           and regulations.

Our objective was to determine whether       WHAT THE OIG RECOMMENDED:
ECR observations were addressed in an        We recommended the chief
effective and timely manner.                 sustainability officer implement formal
                                             ECR follow-up procedures to ensure
WHAT THE OIG FOUND:                          continued escalation and assistance
The Office of Sustainability and facility    until observations are closed; and
management need to improve the ECR           coordination with operations
closeout process to ensure ECR               management at the headquarters, area,
observations are addressed effectively       district and facility levels as appropriate.
and on time. From FYs 2012 through           Link to review the entire report
June 17, 2014

MEMORANDUM FOR:            THOMAS G. DAY
                           CHIEF SUSTAINABILITY OFFICER




FROM:                      Janet M. Sorensen
                           Deputy Assistant Inspector General
                            for Revenue and Resources

SUBJECT:                   Audit Report – Environmental Compliance Review Closeout
                           Process (Report Number HR-AR-14-003)

This report presents the results of our audit of the U.S. Postal Service's Environmental
Compliance Review Closeout Process (Project Number 14YG004HR000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Monique P. Colter, director,
Human Resources and Support, or me at 703-248-2100.

Attachment

cc: Corporate Audit and Response Management
Environmental Compliance Review Closeout Process                                                                   HR-AR-14-003




                                               TABLE OF CONTENTS

Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 1

Corrective Actions for Observations Open More than 181 Days ..................................... 2

Escalation Process .......................................................................................................... 3

Recommendation ............................................................................................................ 4

Management’s Comments .............................................................................................. 4

Evaluation of Management’s Comments ......................................................................... 4

Appendix A: Additional Information ................................................................................. 5

   Background ................................................................................................................. 5

   Objective, Scope, and Methodology ............................................................................ 5

   Prior Audit Coverage ................................................................................................... 6

Appendix B: Other Impact ............................................................................................... 7

Appendix C: Facilities Visited .......................................................................................... 9

Appendix D: Environmental Compliance Review Escalation Process ........................... 10

Appendix E: Management’s Comments ........................................................................ 12
Environmental Compliance Review Closeout Process                                                         HR-AR-14-003




Introduction

This report presents the results of our self-initiated audit of the U.S. Postal Service's
Environmental Compliance Review (ECR) closeout process (Project Number
14YG004HR000). The objective of this audit was to determine whether ECR
observations were addressed in an effective and timely manner. See Appendix A for
additional information about this audit.

The Postal Service designed the ECR program to minimize the risk of noncompliance
with environmental regulations at high-risk facilities1 and to promote best practices. The
program provides an internal process to review postal facilities' conformance with
applicable environmental laws and regulations and to track regulatory deficiencies and
corrective actions.

In fiscal years (FY) 2012 and 2013, the Postal Service’s Office of Sustainability
conducted 487 ECRs, resulting in 4,132 observations. The Office of Sustainability tracks
ECR observations, including findings and best management practices (BMP),2 in the
Environmental Tool Kit (ETK), a postal web-based system used to plan, perform, and
verify ECR corrective actions. Installation heads3 must close ECR findings and BMPs
within 90 days of the ECR completion date. To close observations, management must
complete and document all recommended corrective actions. The ECR includes an
escalation process in which the ETK automatically generates notifications and
progressively sends them to higher level management at four intervals beginning 15
days before and ending 61 days after a corrective action’s due date.

Conclusion

The Office of Sustainability and facility management need to improve the ECR closeout
process to ensure ECR observations are addressed effectively and on time. Installation
heads completed corrective actions and properly closed 2,946 of the 4,132 observations
(71 percent) from FY 2012 through FY 2013 within 90 days of the ECR's completion
date.4 However, as of October 31, 2013, 42 facilities had 215 observations (133 findings
and 82 BMPs) open for more than 181 days. One observation corresponded to an ECR
conducted in March 2012. We reviewed 142 of these observations and found that,
although the majority had action plans in progress, some were not properly documented
or management had not taken action on them. Further, the escalation process was not
effectively ensuring that responsible personnel addressed observations open more than

1
  High-risk facilities operate under specific regulations to ensure environmental compliance for storm water and air
permits, hazardous waste handling and disposal, and underground storage tanks.
2
  Findings describe facility operations or activities that were not in compliance with regulatory requirements, such as
storing universal waste lamps in open containers, which does not comply with requirements of the Resource
Conservation and Recovery Act of 1976. BMPs are those practices that, if not addressed, could lead to regulatory
noncompliance.
3
  The top management official at a particular installation.
4
  As of February 14, 2014, 4,000 (97 percent) were closed.
                                                              1
Environmental Compliance Review Closeout Process                                                    HR-AR-14-003



181 days. We identified about $2 million in assets at risk as a result of potential fines.
See Appendix B for our assets at risk calculation.

Corrective Actions for Observations Open More than 181 Days

We visited 15 of the 42 facilities with observations open more than 181 days and
determined that installation heads closed 26 (18 percent) during the course of our audit
and initiated but did not complete corrective action on 72 (51 percent). However,
installation heads did not update the status to "completed" in ETK for 31 observations
(22 percent) and did not take any corrective action on 13 (9 percent). Table 1 shows the
status of the observations at the time of our site visits.

                                        Table 1. Observation Status

                                                                                                     Percent
                                               5
                   Observation Status                               Findings       BMPs    Total     of Total
     Corrective action completed; status not updated
     to "completed" in ETK6                                                   23      8        31         22%
     Corrective action completed; status updated to
     "completed" in ETK7                                                      14     12        26         18%
     Corrective action in progress                                            53     19        72         51%
     No corrective action taken                                                4      9        13          9%
     Total                                                                    94     48       142        100%
    Source: U.S. Postal Service Office of Inspector General (OIG) analysis.

Installation heads are responsible for ensuring facilities follow federal, state, and local
laws as well as Postal Service environmental policies.8 They should also ensure ECR
corrective actions are completed and documented in the ETK within 90 days.




5
  The status of each open observation based on discussions with facility managers, observations, and documentation
reviewed during our visits.
6
  This includes two findings for which we found evidence during our site visit suggesting the findings had either
recurred or had not been fully abated.
7
  Observations in this category represent those that management completed but did not document in ETK until the
period between October 31, 2013, and the time of our site visit. The total includes two findings and one BMP for
which we found evidence during our site visit suggesting the observations had either recurred or had not been fully
abated.
8
  Administrative Support Manual, Issue 13, Section 695.32, dated July 1999.


                                                           2
Environmental Compliance Review Closeout Process                                                       HR-AR-14-003




Installation heads9 indicated they did not always complete and document corrective
actions on time due to other priorities or because the corrective actions depended on
circumstances beyond their control, such as facility service office actions, funding
approvals, and contractor delays. Also, according to installation heads, district officials
did not contact them regarding ECR corrective actions. Further, at the sites visited, we
found the Office of Sustainability did not provide sufficient follow-up and guidance on
open ECR observations to ensure they were properly addressed.

Postal Service policy10 states that district managers are responsible for ensuring timely
completion of environmental corrective actions within their control. Also, the Office of
Sustainability must provide direction and assistance to area and district stakeholders to
ensure consistent and standardized implementation of the Postal Service’s
environmental compliance policies, programs, and management system. However, ECR
instructions do not include detailed procedures for providing direction and assistance,
including associated timing.

When personnel do not close ECR findings on time, the Postal Service is at greater risk
of incurring fines for noncompliance with environmental laws and regulations. Based on
the status of the open observations for the 15 facilities we visited, we identified a
maximum of about $2 million in potential federal fines. We consider those potential fines
as assets at risk.

Escalation Process

The escalation process did not adequately ensure that responsible personnel address
observations open more than 181 days, increasing the risk of continued environmental
noncompliance.

Formal escalation procedures do not exist to ensure there is continued communication
until observations are closed. ETK sends a final notification of open observations 151
days after the ECR end date and, subsequently, generates a rollup report of open
observations 181 days after the ECR's end date. From that point on, ETK automatically
generates monthly rollup reports and Office of Sustainability management receive, but
does not always follow up on, these reports. See Appendix D for the ETK email
notification process and associated intervals. Postal Service policy requires the Office of
Sustainability to provide direction and assistance to area and district stakeholders to
ensure consistent and standardized implementation of the Postal Service’s
environmental compliance policies, programs, and management system.11




9
  In addition to installation heads, we also interviewed maintenance managers. For consistency, we refer to all as
installation heads throughout this report.
10
   Administrative Support Manual, Issue 13, Section 695, dated July 1999.
11
   Administrative Support Manual, Issue 13, Section 695, dated July 1999.


                                                          3
Environmental Compliance Review Closeout Process                                 HR-AR-14-003



Recommendation

We recommend the chief sustainability officer:

1. Establish and implement formal environmental compliance review follow-up
   procedures that ensure continued escalation and assistance until observations are
   closed and that also ensure coordination with operations management at the
   headquarters, area, district, and facility levels as appropriate.

Management’s Comments

Management agreed with the findings and, in a prior correspondence, also agreed with
the recommendation. Management stated they issued a defined implementation
process to all Office of Sustainability staff on May 29, 2014. This process is in effect for
all FY 2014 ECRs. See Appendix E for management’s comments, in their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendation and
corrective actions should resolve the issues identified in the report. Because
management has taken corrective actions to resolve the recommendation, we are
closing the recommendation 1 with issuance of this report.




                                                   4
Environmental Compliance Review Closeout Process                                HR-AR-14-003



                           Appendix A: Additional Information

Background

The Office of Sustainability initiates and manages programs to minimize the impact of
Postal Service activities on the environment. It tracks and reports sustainability issues
as well as programs that impact energy or environmental issues.

In FY 1995, the Postal Service implemented a comprehensive ECR program for
high-risk facilities to minimize the risk of environmental noncompliance and to promote
best practices. High-risk facilities include those needing storm water or air permits,
those that handle or dispose of hazardous waste, and those with underground storage
tanks. The ECR program provides an internal process to periodically review these
facilities' compliance with applicable environmental laws and regulations and track
regulatory deficiencies and corrective actions.

The ECR program includes a risk assessment and a site evaluation and involves three
main strategies:

   Identifying all activities that pose a risk of noncompliance.
   Assessing the facility's compliance status through ECRs and assessments.
   Providing support for, and follow-up on, corrective actions.

Installation heads must close ECR observations within 90 days of the ECR completion
date. ECR observations, including findings and BMPs, are tracked in ETK, a postal
web-based system environmental specialists use to plan, perform, and verify ECR
corrective actions. ETK contains reporting capabilities and provides a dashboard view of
performance metrics to help monitor, track, and report environmental business
processes in the areas of compliance and auditing. As part of the escalation process,
ETK sends emails to progressively higher levels of management at specified intervals.
See Appendix D for a detailed explanation of the escalation process.

Objective, Scope, and Methodology

Our objective was to determine whether ECR observations are addressed in an
effective and timely manner.

The scope of the audit covered all open ECRs conducted in FYs 2012 and 2013. We
focused on observations that had incomplete corrective actions as of October 31, 2013,
and remained open longer than 181 days.




                                                   5
Environmental Compliance Review Closeout Process                                        HR-AR-14-003



To accomplish our objective, we:

      Identified all FYs 2012 and 2013 observations for which corrective actions had not
       been completed by extracting the ECR rollup report12 from ETK on
       October 31, 2013.

      From November 2013 through January 2014, we conducted site visits at 15 facilities
       including 11 statistically selected facilities and four judgmentally selected facilities in
       the New York, Triboro, South Jersey, Greensboro, South Florida, and Caribbean
       districts. See Appendix C for a list of sites visited.

      Reviewed the status of 142 open observations at the 15 facilities visited.

      Interviewed district managers for the sites we visited, the ETK subject matter expert,
       and Office of Sustainability management.

We conducted this performance audit from November 2013 through June 2014 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. We discussed our
observations and conclusions with management on April 29, 2014, and included their
comments where appropriate.

We assessed the reliability of ETK data by interviewing the system administrator and
facility managers and comparing email log data to the ECR escalation list. We
determined that the data were sufficiently reliable for the purposes of this report.

Prior Audit Coverage

The OIG did not identify any prior audits or reviews related to the objective of this audit.




12
     The ECR rollup report is a list of all ECR observations open more than 181 days.


                                                            6
Environmental Compliance Review Closeout Process                                                          HR-AR-14-003




                                         Appendix B: Other Impact

             Recommendation                           Impact Category                         Amount
                   1                                   Assets at Risk13                      $2,062,500

Total assets at risk represents the risk of fines as a result of one citation for 1 day14 at
the maximum allowable federal penalty for each finding open at the time of our 15 site
visits. During each site visit, we determined the current status of each observation by
interviewing applicable facility managers, making observations, and reviewing relevant
documentation.

To determine assets at risk, we used the following methodology:

    We retrieved the ETK rollup report, which identified the universe of 42 facilities in 20
     districts with open ECR findings and BMPs. The ETK rollup report also identified the
     relevant environmental law corresponding to each open finding and BMP.

    We conducted fieldwork at six judgmentally selected facilities in the Greensboro,
     New York, South Jersey, and Triboro districts. We chose those facilities because
     they each had six or more open findings as of October 31, 2013.

    We identified a statistical sample of four districts of the 20 districts having at least
     one facility with open findings ― the Greensboro, South Florida, Triboro, and
     Caribbean districts. As a result, we conducted fieldwork at nine additional sites.

    Based on fieldwork, we determined that corrective actions had not been completed
     for 90 findings and BMPs.15 We excluded 29 BMPs,16 two findings corresponding to
     nonfederal environmental laws, and four duplicate findings observed in a
     subsequent ECR for the same facility. This resulted in 55 findings.

    We determined the maximum allowable fines associated with each of the relevant
     environmental laws corresponding to the 55 findings is $37,500, based on a study17
     the Postal Service Office of Sustainability conducted.


13
   Assets or accountable items (for example, cash, stamps, and money orders) that are at risk of loss because of
inadequate internal controls.
14
   Although separate days can be determined to be separate violations depending on the statute and nature of the
violation, for the purposes of this assets at risk calculation we assumed that each finding had occurred only on the
day of our site visit.
15
   This includes the findings and BMPs we categorized as either "Corrective Action in Progress," or "No Corrective
Action Taken." We also included four findings and one BMP that had been closed, but we found evidence suggesting
they had either recurred or had not been fully abated.
16
   Because BMPs do not reflect an actual regulatory violation, we did not consider open BMPs in our assets at risk
calculation.
17
   Potential Financial Implication of Regulatory Findings, November 5, 2013. This study attempted to quantify the
potential financial implications of failure to take corrective actions and consisted of a review of the regulations/rules
and identification of the potential fines that could be imposed.


                                                            7
Environmental Compliance Review Closeout Process                                HR-AR-14-003



   We multiplied the maximum allowable fine by 55 findings, for a total of $2,062,500.
    We did not project our results. Our estimated assets at risk reflects only the 15 sites
    we visited.




                                                   8
Environmental Compliance Review Closeout Process                                   HR-AR-14-003



                                 Appendix C: Facilities Visited


              Area              District                 Facility Name

         Northeast         New York        Bronx Main Post Office (MPO)
                                           Brooklyn Processing and Distribution
         Northeast         Triboro         Center (P&DC)
                                           Brooklyn Vehicle Maintenance Facility
         Northeast         Triboro         (VMF)

         Eastern           South Jersey    Cherry Hill MPO

         Northeast         Caribbean       Detached Mail Distribution Unit Annex

         Northeast         New York        Manhattan VMF

         Southern          South Florida   Miami P&DC

         Southern          South Florida   Miami VMF

         Northeast         Caribbean       Ponce VMF

         Northeast         Triboro         Queens P&DC

         Northeast         Triboro         Queens VMF

         Capital Metro     Greensboro      Raleigh VMF

         Northeast         Caribbean       San Juan P&DC

         Northeast         Caribbean       San Juan VMF

         Eastern           South Jersey    South Jersey P&DC
        Source: OIG analysis.




                                                   9
Environmental Compliance Review Closeout Process                                                    HR-AR-14-003




            Appendix D: Environmental Compliance Review Escalation Process

Installation heads must complete corrective actions for each finding or BMP within 90
days of the ECR completion date. As part of the ECR escalation process, the ETK
automatically generates email notifications and sends them to progressively higher
levels of management at four intervals beginning 15 days before the due date of the
corrective actions and ending 61 days after the due date, as follows:

                                     ETK Email Notification Process


     Interval                                       Recipient
                  Plants:
                    Facility Responder
                    East/West Field Team 18Contact Person
                    Plant Manager
                    Facility Maintenance Manager
15 Days
                  VMFs:
Before
                   Facility Responder
the Due
                   East/West Field Team Contact Person
Date
                   VMF Manager
                  Stations, Branches, and MPOs:
                   Facility Responder
                   East/West Field Team Contact Person
                   Postmaster or Station/Branch Manager
                  Plants:
                    Facility Responder
                    East/West Field Team Contact Person
                    Plant Manager
                    Facility Maintenance Manager
                    Manager Regional Environmental Compliance and Sustainability (West/East)
                    Lead District Maintenance Manager
                  VMFs:
                   Facility Responder
1 Day              East/West Field Team Contact Person
Overdue            VMF Manager
                   Manager Regional Environmental Compliance and Sustainability (West/East)
                   Lead Vehicle Maintenance Manager
                  Stations, Branches, and MPOs:
                   Facility Responder
                   East/West Field Team Contact Person
                   Postmaster or Station/Branch Manager
                   Manager Regional Environmental Compliance and Sustainability (West/East)
                   Post Office Operations Manager (POOM) or Postal Career Executive Service
                     (PCES) Postmaster



18
     Regional teams East and West directly support management in implementing environmental policies.


                                                         10
Environmental Compliance Review Closeout Process                                     HR-AR-14-003




 Interval                                               Recipient
                Plants:
                  Facility Responder
                  East/West Field Team Contact Person
                  Plant Manager
                  Facility Maintenance Manager
                  Manager Regional Environmental Compliance and Sustainability (West/East)
                  Lead District Maintenance Manager
                  District Manager
                  Senior Plant Manager
                VMFs:
                 Facility Responder
31 Days
                 East/West Field Team Contact Person
Overdue
                 VMF Manager
                 Manager Regional Environmental Compliance and Sustainability (West/East)
                 Lead Vehicle Maintenance Manager
                 District Manager
                Stations, Branches, and MPOs:
                 Facility Responder
                 East/West Field Team Contact Person
                 Postmaster or Station/Branch Manager
                 Manager Regional Environmental Compliance and Sustainability (West/East)
                 POOM or PCES Postmaster
                 District Manager
61 Days          Same recipients as 31 Days Overdue. This is the final notification.
Overdue
                  Monthly ETK automatically “rolls-up” reports of ECRs that are past 181 days
91 Days
                   from ECR completion date and sends them to Office of Sustainability
Overdue
                   management.
Source: Postal Service Office of Sustainability.




                                                   11
Environmental Compliance Review Closeout Process             HR-AR-14-003




                         Appendix E: Management’s Comments




                                                   12
Environmental Compliance Review Closeout Process        HR-AR-14-003




                                                   13
